DOE F 1325.8
(08-93)
'United States Government                                                                        Department of Energy


Memorandum
      Date: September 3, 2004

REPLY TO
 ATTN OF: IG-34 (A04SC018)                                              Audit Report No.: OAS-L-04-20

 SUBJECT: Audit of Selected Financial Assistance Awards in the Office of Science

         TO: Principal Deputy Director, Office of Science, SC-3

               The purpose of this report is to inform you of the results of our audit of Selected Financial
               Assistance Awards in the Office of Science. The audit was initiated in March 2004 and
               fieldwork was conducted through July 2004 at the Department of Energy (Department)
               Office of Science (Science) at Headquarters and the Chicago Office, formerly the Chicago
               Operations Office. The audit methodology is described in an attachment to this report.

               INTRODUCTION AND OBJECTIVE

               Science is the largest supporter of basic research in the physical sciences in the United
               States and provides more that 40 percent of total funding for this area of vital national
               importance. It oversees, and is the principal Federal funding agency of, the nation's
               research programs in high energy physics, nuclear physics, and fusion energy sciences.

               Science's significant investment in basic research is largely funded by.financial assistance
               agreements which include grants and cooperative agreements. Currently, Science has over
               2,900 active financial assistance awards totaling over $4 billion dollars in obligated funds.
               Due to the importance of the Science mission, and its significant investment in financial
               assistance awards, we initiated this audit to determine whether Science was adequately
               managing its financial assistance awards.

               CONCLUSION AND OBSERVATIONS

               Nothing significant came to our attention to indicate that Science was not adequately
               managing the financial assistance awards that we reviewed. However, Science could
               improve its monitoring of financial assistance awards by providing more detailed
               information in its statements of work and better documenting its monitoring activities.

               Statements of Work

               Science's statements of work were broadly written and did not establish milestones and/or
               schedules, thereby limiting the effectiveness of monitoring designed to ensure recipients
were meeting expectations and properly using funds. Program managers write broad
statements of work to allow for more flexibility in managing projects; however, we believe
that this makes it more difficult to evaluate the status of the projects, determine if
expectations are being met, or ensure that funds are being properly used. For example, the
statements of work for the West Virginia University National Education and Technology
Center project does not stipulate any milestones and/or schedules pertaining to the phases
of constructing the facility. Therefore, program managers cannot compare the statement of
work to the progress reports to ensure that the project is progressing as anticipated.

Monitoring Activities

Science could improve documenting its financial assistance monitoring activities.
Although we were able to reconstruct monitoring activities from multiple sources and
locations, the official project files did not always provide a clear depiction of the scope of
monitoring activities. The official project files were missing documents related to these
key areas:

*   Periodic Contact: Program managers stated that they were in regular contact with the
    recipient, but during our review we found little evidence of this contact in the project
    files. Thoroughly documenting monitoring activities in the official project files is
    essential to continued operations in the event that employees depart, responsibility is
    transferred, or reorganizations occur.

*   Financial reports: According to the Chicago Office Financial Report tracking sheet,
    only 8 of the 13 recipients in our sample submitted a Federal Cash Transaction report as
    required. This report shows how much cash the recipient has drawn down in a specific
    time period and also shows how much cash the recipient has on hand. This information
    is useful in determining how a project is proceeding compared to the amount spent to
    date on the project.

*   Progress reports: Although a required deliverable, only 2 of 10 construction grant
    files had progress reports documented for the entire project period, and many of the
    progress reports that were submitted were sporadic. Furthermore, there appeared to be
    confusion regarding the length of time that project managers should keep progress
    reports. Progress reports are a key mechanism for monitoring activities as they provide
    the schedules and/or milestones for the projects. Therefore, not only is the
    completeness of the official project files being sacrificed but also monitoring appears to
    be inadequate when the progress reports are not documented.

*   Single Audit Act (A-133) Audits: We found that various recipients had recent
    findings from A-133 audits that were not in the files. The A-133 audits are an effective
    way to identify deficiencies in recipient's controls that ensure Federal funds are




                                                2
    accounted for correctly and are properly used. Despite the importance of these audits,
    we were told that contracting officers do not look at any A-133 audits until close-out
    unless they are informed by a third party that a finding related to the Department's
    funding had been issued.

Prior Findings

As noted in previous audits, the addition of adequate milestones and/or schedules to the
statements of work and thoroughly documenting monitoring activities in the official project
files should increase chances of project success. We have recently found similar
management weaknesses in other Department projects that did not meet their overall
objectives. Specifically, in our report on The McNeil Biomass Project (DOE/IG-0630,
December 2003) we noted that the Department continued to fund the project despite little to
no progress because it did not ensure objectives and milestones were appropriate. In
addition, in our report Management Controls over the WERC Project (OAS-M-04-03,
May 2004) we found that the project was not accomplishing its goals and was reimbursed
for inappropriate costs because project managers had been obtaining only limited
information regarding project activities.


SUGGESTED ACTIONS:

In light of these concerns, the Principal Deputy Director, Office of Science, should consider
taking the following actions:

*   Require that all statements of work, regardless of project funding source, disclose
    milestones and/or schedules for all projects; and,

*   Ensure completeness of project files by specifying what the official project files should
    contain and how long the information should be retained.

The suggestions noted above were discussed with officials from Science and the Chicago
Office on July 29, 2004. Officials stated they would consider obtaining schedule and/or
milestone information from recipients of new awards. Further, they are formulating
procedures to help standardize the contents of project files. These officials stated that,
based on the results of our report, our suggestions may be incorporated into the procedures.
Since no formal recommendations are being made in this letter report, a formal response is
not required.




                                              3
We appreciate the cooperation of your staff during our review. If you have any questions
regarding our audit, please contact Stacy Bleigh (301) 903-8897 or Bill Lubecke at
(720) 962-7546.



                                            George Collard, Acting Director
                                            Science, Energy, Technology,
                                              and Financial Audits
                                            Office of Audit Services
                                            Office of Inspector General

Attachment

cc:    Manager, Chicago Office
       Audit Liaison, Office of Science, SC-67
       Audit Liaison, Chicago Office
       Team Leader, Audit Liaison Team, ME-100




                                            4
                                                                                   Attachment
SCOPE AND METHODOLOGY

The audit was performed between March 2004 and July 2004 at the Department of Energy
(Department) Office of Science (Science) at Headquarters, and the Chicago Office. To
accomplish the audit objective, we:

   *   Held discussions with contracting officers, program managers, and other officials
       from Science at Headquarters and the Chicago Office in order to gain an
       understanding of the financial assistance award process, roles and responsibilities,
       history of the projects, the status of the projects, and any problems that the projects
       may have experienced;

   *   Obtained and reviewed the project files at Headquarters and the Chicago Office for
       the 6 research and 10 construction projects that we selected for review;

   *   Visited the sites of two recipients, West Virginia University and New Mexico
       Highlands University, to discuss the projects with key personnel and to physically
       observe the progress of the projects;

   *   Reviewed laws and regulations and prior audit reports related to the audit objective;
       and,

   *   Reviewed performance related information to determine compliance with the
       Government Performance and Results Act of 1993.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. We did not rely on computer processed data,
therefore we did not assess data reliability. An exit conference was held on July 29, 2004.




                                               5
DOE F 325.8
  . (8-89)
 EFG (07-90)


United States Government                                                                        Deoartment of Energy

Memorandum
           DATE:       SEP 10 2004
      REPLY TO
       ATTN OF:      IG-34 (A04SC018)
      SUBJECT:       Final Report Package for "Audit of Selected Financial Assistance Awards in the Office of Science
                     Audit Report No.: OAS-L-04-20
               TO:   Rickey R. Hass, Assistant Inspector General for Audit Operations

                     Attached is the required final report package on the subject special report. The pertinent details are:
                1. Actual Staff days:       121
                     Actual Elapsed days: 157

                2. Names of OIG and/or contractor audit staff:

                     Assistant Director:    Kevin Majane
                     Team Leader:           William Lubecke
                     Auditor-in-Charge:     Stacy Bleigh
                     Audit Staff:           Michael Carney
                3. Coordination with Investigations and Inspections:
                     Investigations:        Yvette Milam - 04/27/04 and 09/03/04
                     Inspections:           Geoff Gray - 04 /27/ 4 and 09/03/04



                                                               rge .       ard, Acting rector
                                                           Science, Energy, Technology,
                                                             and Financial Audits
                                                           Office of Audit Services
                                                           Office of Inspector General
          Attachment
          1. Final Report
          2. Monetary Impact Report
          3. Audit Project Summary Report
          4. Audit Database Information Sheet
                            MONETARY IMPACT OF REPORT NO.: OAS-L-04-20

1. Title of Audit:            Selected Financial Assistance Awards in the Office of Science

2. Division:                  Science, Energy, Technology and Financial Audits

3. Project No.:               AOSC018

4. Type of Audit:

       Financial:                                                   Performance:        X
          Financial Statement                                         Economy and Efficiency                 X
          Financial Related                                           Program Results
      Other (specify type):

5.
                                                                                                            MGT.     POTENTIAL
           FINDING                           COST                       QUESTIONED COSTS                  POSITION    BUDGET
                                          AVOIDANCE                                                                   IMPACT
(A)               (B)                  (C)        (D)         (E)          (F)       (G)        (H)          (I)        (J)
                 Title                One      Recurring   Questioned   'Unsup-    Unre-       Total      C=Concur     Y=Yes
                                      Time     Amount                     ported   solved   (E)+(F)+(G)   N=Noncon     N=No
                                                PerYear                                                   U=Undec
1.    No findings related to this     N/A        N/A          N/A         N/A      N/A         N/A          N/A        N/A
      report.



TOTALS--ALL FINDINGS"




6. Remarks:

7. Contractor:  N/A                                           10. Approvals:
8. Contract No.: N/A                                          Division Director/Date:
9. Task Order No.:                  N/A                        Technical Advisor & DaA'              _    ~_/
                                                 Office of the Inspector General (OIG)
                                           Audit Project Office Summary (APS)
                                                                                                                                             Page 1
Report run on:                       September 3, 2004 2:21 PM


  Audit#: A04SC018                  Ofc:   FOA      Title: SELECTED GRANTS
                                                            :
                                                           -* *'*MiIes        tnes       * *^
                                                                                           **                                       ;
                                                   Planned             End of Survey                  Revised             Actual


   Entrance Conference:.....                     01-OCT.-03                                     30-MAR-04               30-MAR-04

   Survey:..................                                                                    20-AUG-04               20-AUG-04

   Draft Report:.............                    30-AUG-04                                      30-AUG-04               20-AUG-04

   Completed (With Report):.                     30-SEP-04              20-AUG-04               13-SEP-04               03-SEP-04       (R
   ------------           Elapsed Days:                  365                   143                        167               157
                                                                                                          Elap. Less Susp:
   Date Suspended:                                                   Date Terminated:
   Date Reactivated:                                               Date Cancelled:
   DaysSuspended(Cur/Tot):                                       ) Report Number:               OAS-L-04-20
   Rpt Title:                             Report Type:     LTR LETTER REPORT
   AUDIT OF SELECTED FINANCIAL ASSISTANCE AWARDS IN THE OFFICE OF .SCIENCE


                                                   ***     Audit Codes and Personnel                   ****

   Class:            PER       PERFORMANCE
  Program: MA                  Not Found
  MgtChall: 103                PERFORMANCE/PROJECT
                                                                                      AD:       530           MAJANE
   Site:             MRA       MULTI-REGION AUDIT
                                                                                     AIC:       746           BLEIGH
   SecMiss:          SCI  SCIENCE
                       SecMiss:
                          SCIENCE
                                SCI                                          Team Ldr:          232           LUBECKE
   PresInit: RDI               R&D INVESTMENT                                Tech Adv:          544           ACTON

                                                         **** Task Information           ****


          Task No:
          Task Order Dt:                                             CO Tech. Rep:
          Orig Auth Hrs:                                             Orig Auth Costs:
          Current Auth:                                              Current Auth Cost:
          Tot Actl IPR Hr:                                           Tot Actl Cost:


                                                                     *Time Charges*s**

                          Emp/Cont•Name           "Numdays                 LastDate
                          VERMILLION, S                        0.5         17-APR-04
                          LUBECKE, W                       17.4            21-AUG-04
                          BLEIGH, S                        43.1            04-SEP-04
                          CARNEY, M                        59.9            04-SEP-04
                           Total:                         120.9
                      AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04SC018

2. Title: Selected Financial Assistance Awards in the Office of Science

3. Report No./Date: OAS-L-04-20, September 3, 2004

4. Management Challenge Area:

5. Presidential Mgmt Initiative:

6. Secretary Priority/Initiative:

7. Program Code:

8. Location/Sites: Headquarters and Chicago Office

9. Finding Summary: Nothing significant came to our attention to indicate that Science was not
adequately managing the financial assistance awards that we reviewed. However, Science could
improve its monitoring of financial assistance awards by providing more detailed information in
its statements of work and better documenting its monitoring activities. We suggested that the
Principal Deputy Director, Office of Science, consider taking the following actions: (1) require
that all statements of work, regardless of project funding source, disclose milestones and/or
schedules for all projects, and (2) ensure completeness of project files by specifying what the
official project files should contain and how long the information should be retained.

10. Keywords:
    * Basic Research
    * Chicago Office
    * Chicago Operations Office
    * Construction Projects
    * Cooperative Agreements
    * Financial Assistance Agreements
    * Financial Assistance Awards
    * Grants
    * Milestones
    * Monitoring Activities
    * New Mexico Highlands University
    * Project Management
    * Research Projects
    * Single Audit Act (A-133) Audits
    * West Virginia University
